In the

Supreme Court of the United States
___________
GARY LEE WILLINGHAM,
PETITIONER,
V.

UNITED STATES OF AMERICA,
RESPONDENT,
___________
PETITION APPENDIX

Case: 19-11392

Document: 00515681277

Page: 1

Date Filed: 12/21/2020

United States Court of Appeals
for the Fifth Circuit
No. 19-11392
United States of America,
Plaintiff—Appellee,
versus
Gary Lee Willingham,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 1:16-CV-116
USDC No. 1:01-CR-64-1
ORDER:
Gary Lee Willingham, federal prisoner # 27598-177, was convicted in
2002 of being a felon in possession of a firearm in violation of 18 U.S.C.
§ 922(g)(1). He was sentenced under the Armed Career Criminal Act
(ACCA), 18 U.S.C. § 924(e), to 210 months of imprisonment. This court
granted Willingham tentative authorization to file a successive 28 U.S.C.
§ 2255 motion raising claims grounded in Johnson v. United States, 576 U.S.
591 (2015), which determined that the residual clause of the ACCA was
unconstitutionally vague.

The district court dismissed his authorized

successive § 2255 motion on jurisdictional grounds, finding that Willingham
failed to show his claims relied on a new rule of constitutional law as
Willingham v. United States
Petition Appendix

1a

Case: 19-11392

Document: 00515681277

Page: 2

Date Filed: 12/21/2020

No. 19-11392

announced by the Supreme Court and made retroactively applicable to his
case on collateral review. Willingham now moves this court for a certificate
of appealability (COA) to appeal the district court’s dismissal of his
successive § 2255 motion.
Willingham contends that it is debatable whether he, as a federal
prisoner, was required to satisfy the standards set forth in 28 U.S.C.
§ 2244(b)(2)(A) and (b)(4), in order for the district court to have jurisdiction
to entertain the merits of his authorized successive § 2255 motion. He avers
that the district court should have considered the merits of his claims and
that he should not have been required to show that his claims relied on the
holding in Johnson or that it was more likely than not that the sentencing
court relied on the residual clause.
To obtain a COA, Willingham must make “a substantial showing of
the denial of a constitutional right.”

28 U.S.C. § 2253(c)(2); Slack v.

McDaniel, 529 U.S. 473, 483 (2000). A COA movant makes that showing
“by demonstrating that jurists of reason could disagree with the district
court’s resolution of his constitutional claims or that jurists could conclude
the issues presented are adequate to deserve encouragement to proceed
further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
All of Willingham’s claims are raised for the first time in his COA
pleadings. As such, we decline to consider them. See Henderson v. Cockrell,
333 F.3d 592, 605 (5th Cir. 2003); see also Black v. Davis, 902 F.3d 541, 545
(5th Cir. 2018). Furthermore, Willingham has abandoned any challenge to
the district court’s implicit findings that he failed to demonstrate that it was
more likely than not that the sentencing court relied on the ACCA’s residual
clause when imposing sentence. See Hughes v. Johnson, 191 F.3d 607, 613 (5th
Cir. 1999).

2

Willingham v. United States
Petition Appendix

2a

Case: 19-11392

Document: 00515681277

Page: 3

Date Filed: 12/21/2020

No. 19-11392

Because Willingham has effectively abandoned any challenge to the
district court’s reasons for denying his successive § 2255 motion and all of
his arguments are raised for the first time in his COA pleadings, he has not
shown that his claims deserve encouragement to proceed further. See MillerEl, 537 U.S. at 327. His motion for a COA is therefore DENIED.
______________
Edith H. Jones
United States Circuit Judge

3

Willingham v. United States
Petition Appendix

3a

Case: 16-10859

Document: 00513683812

Page: 1

Case 1:16-cv-00116-C Document 4 Filed 09/21/16

Date Filed: 09/19/2016

Page 1 of 3 PageID 17

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
___________________
No. 16-10859
___________________
A True Copy
Certified order issued Sep 19, 2016

In re: GARY LEE WILLINGHAM,
Movant

Clerk, U.S. Court of Appeals, Fifth Circuit

________________________
Motion for an order authorizing
the United States District Court for the
Northern District of Texas, Abilene to consider
a successive 28 U.S.C. § 2255 motion
________________________
Before JOLLY, DAVIS, and SOUTHWICK, Circuit Judges.
PER CURIAM:

Gary Lee Willingham, federal prisoner # 27598-177, has filed a
motion for authorization to file a successive 28 U.S.C. § 2255 motion
challenging the sentence imposed following his conviction for being a
felon in possession of a firearm, in violation of 18 U.S.C. § 922(g)(1).
Willingham maintains that his sentence was unconstitutionally
enhanced under the Armed Career Criminal Act (ACCA) because his
prior Texas burglary convictions were violent felonies only under the
residual clause of the ACCA, which has been invalidated. He invokes the
Supreme Court’s decision in Johnson v. United States, 135 S. Ct. 2551,

19-11392.23

Willingham v. United States
Petition Appendix

4a

Case: 16-10859

Document: 00513683812

Page: 2

Case 1:16-cv-00116-C Document 4 Filed 09/21/16

Date Filed: 09/19/2016

Page 2 of 3 PageID 18

2557 (2015), which determined that the residual clause of the ACCA was
unconstitutionally vague.
This court will not grant a prisoner authorization to file a successive
§ 2255 motion absent a prisoner’s prima facie showing that his claims
rely on: (1) newly discovered evidence establishing that no reasonable
factfinder would have convicted him of the underlying offense or (2) a new
rule of constitutional law, made retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable. § 2255(h); see
28 U.S.C. § 2244(b)(3)(C); Reyes-Requena v. United States, 243 F.3d 893,
897-98 (5th Cir. 2001).

The Supreme Court has held that Johnson

announced a new rule of constitutional law that is retroactively
applicable to cases on collateral review. Welch v. United States, 136 S.
Ct. 1257, 1265 (2016).
Our assessment of Willingham’s motion for authorization is limited
by the records available to us, and we express no view of the ultimate
merit of his claims. We have sufficient information, however, to grant
him authorization to proceed further under § 2255(h)(2). See ReyesRequena, 243 F.3d at 899.
Therefore, IT IS ORDERED that Willingham’s motion for
authorization to file a successive § 2255 motion is GRANTED. Our grant
of authorization is tentative in that the district court must dismiss the §
2255 motion without reaching the merits if it determines that
Willingham has failed to make the showing required to file such a motion.
See § 2244(b)(4); Reyes-Requena, 243 F.3d at 899.

The Clerk is

19-11392.24

Willingham v. United States
Petition Appendix

5a

Case: 16-10859

Document: 00513683812

Page: 3

Case 1:16-cv-00116-C Document 4 Filed 09/21/16

Date Filed: 09/19/2016

Page 3 of 3 PageID 19

DIRECTED to transfer the motion for authorization and related
pleadings to the district court for filing as a § 2255 motion.

See

Dornbusch v. Comm’r, 860 F.2d 611, 612-15 (5th Cir. 1988). The filing
date shall be, at the latest, the date the motion for authorization was filed
in this court, unless the district court determines that an earlier filing
date should apply. See Spotville v. Cain, 149 F.3d 374, 376 (5th Cir. 1998)
(prisoner mailbox rule)

19-11392.25

Willingham v. United States
Petition Appendix

6a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 1 of 16 PageID 158

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION

GARY LEE WILLINGHAM
V.
UNITED STATES OF AMERICA

§
§
§
§
§

CIVIL ACTION 1:16-CV-116-O
(Criminal No. 1:01-CR-064-O (1))

ORDER DENYING GOVERNMENT’S MOTION TO DISMISS § 2255 MOTION
AND ORDER FOR EXPEDITED RESPONSE
Now pending before the Court is Defendant Gary Lee Willingham’s successive motion for
relief under 28 U.S.C. § 2255. The Government filed a motion to dismiss, along with an appendix
containing multiple copies of records related to Willingham’s prior convictions. The Court then
appointed counsel for Willingham, and Willingham, through counsel, filed a response to the motion
to dismiss. The issue before the Court is whether the Supreme Court’s decision in Johnson v. United
States, 135 S. Ct. 2551, 2563 (2015), which held that “imposing an increased sentence under the
residual clause of the Armed Career Criminal Act (“ACCA”) violates the Constitution’s guarantee
of due process” provides Willingham any basis for relief. After careful consideration and review
of Willingham’s successive motion under § 2255, the Government’s motion to dismiss,
Willingham’s reply, and the applicable law, the Court concludes that the Government’s motion to
dismiss must be denied, and the Government must file an expedited response to the § 2255 motion
regarding whether Willingham’s sentence under the ACCA may still be supported.
I.

Background/Underlying Case History
On December 3, 2001, Willingham pleaded guilty to one count of being a felon in possession

of a firearm in violation of 18 U.S.C. §§ 922(g)(l) and 924(e). The plea agreement expressly
provided that he pleaded guilty “to the one count Indictment charging a violation of Title 18, United

19-11392.164

Willingham v. United States
Petition Appendix

7a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 2 of 16 PageID 159

States Code, Section 922(g)(1), the penalty for which is found in Title 18, United States Code,
Section 924(e), that being Convicted Felon in Possession of a Firearm (Armed Career Criminal).”
Plea Agreement, CR ECF No. 38, at 2. At the time of the entry of the plea agreement, the Court also
entered Willingham’s factual resume into the record, which included his admission of pawning a
shotgun, and his admission of having been convicted of the following crimes:
1. Cause No. 7385, 118th Judicial District Court of Howard County, Texas Burglary of a Habitation committed on December 6, 1987, for which he received
fifteen (15) years incarceration in the Texas Department of Corrections.
2. Cause No. 7386, 118th Judicial District Court of Howard County, Texas Burglary of a Habitation committed on November 22, 1987, for which he received
fifteen (15) years incarceration in the Texas Department of Corrections.
3. Cause No. F-9365611-RS, 282nd Judicial District Court of Dallas County, Texas Burglary of a Habitation committed on August 20, 1993, for which he received ten
(10) years incarceration in the Texas Department of Criminal Justice - Institutional
Division.
Factual Resume, CR ECF No. 39, at 2. After the entry of his plea, a presentence report was prepared
by a probation officer, and that document again listed these three prior convictions for burglary of
a habitation in the listing of the offense conduct. Presentence Report (“PSR”) ¶ 7. The PSR also
found that Willingham’s offense level was determined based on his having at least three prior
convictions for a “violent felony” or “serious drug offense,” such that he was classified as an armed
career criminal subject to an enhanced sentence under 18 U.S.C. § 924(e). PSR ¶ 22. With
adjustments for acceptance of responsibility, his total offense level was 30, and his criminal history
category was VI. PSR ¶¶ 25–39. Although the applicable range was then 168-210 months, because
the low end of the guideline range was less than the statutorily required minimum sentence of 180
months, the PSR found the guideline range to be 180-210 months under U.S.S.G. § 5G1.1(c)(2).

2

19-11392.165

Willingham v. United States
Petition Appendix

8a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 3 of 16 PageID 160

PSR ¶ 65. Willingham was sentenced on February 22, 2002, to 210 months incarceration in the
Bureau of Prisons and a five-year term of supervised release. Judgment, CR ECF No. 43.
Willingham filed a direct appeal, but the United States Court of Appeals for the Fifth Circuit
affirmed his conviction and sentence in an unpublished opinion. See Willingham v. United States,
No. 02-10265 (5th Cir. Oct. 22, 2002). The Supreme Court denied his petition for writ of certiorari.
Willingham v. United States, 537 U.S. 1239 (2003). He then filed his first motion under § 2255 in
2003, and it was denied in an order and judgment entered on February 23, 2004.1 In August 2015,
Willingham sought an authorization from the court of appeals to file a successive § 2255 motion
based upon Johnson, but by order entered on November 12, 2015, the court of appeals denied
Willingham’s 2015 motion, noting that he had not then shown that his claims were based upon
Johnson. In re Willingham, No.15-10794 (5th Cir. Nov. 12, 2005). On June 24, 2016, Willingham
filed the instant motion under § 2255 with the Clerk of Court, and acknowledged that he again
sought authorization to file a successive § 2255 motion in the court of appeals. Willingham also
submitted another motion for authorization to the court of appeals:
Willingham maintains that his sentence was unconstitutionally enhanced under the
Armed Career Criminal Act (ACCA) because his prior Texas burglary convictions
were violent felonies only under the residual clause of the ACCA which has been
invalidated. He invokes that Supreme Court’s decision in Johnson v. United States,
135 S.Ct. 2551, 2557 (2015), which determined that the residual clause of the ACCA
was unconstitutionally vague.
In re Willingham, No.16-10859 (5th Cir. Sept. 19, 2016). Upon review of this, the court of appeals
granted Willingham’s authorization to proceed further under § 2255(h)(2). Id. The appellate court’s
order directed that Willingham’s motion and related pleadings be transferred to the Clerk of this

1

The original § 2255 motion was assigned civil case number 1:03-CV-086-C.

3

19-11392.166

Willingham v. United States
Petition Appendix

9a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 4 of 16 PageID 161

Court for filing as a § 2255 motion, and all of these documents were then filed in this civil case
number, 1:16-CV-116-O. ECF Nos. 4, 5.
Thus, Willingham’s § 2255 pleadings consist of his June 23, 2016 motion filed in the court
of appeals and forwarded to this Court, and his June 24, 2016 motion filed directly in this case. ECF
Nos. 1, 5. Willingham argues that the burglary of a habitation convictions recited in the Factual
Resume and the PSR (Howard County case numbers 7385 and 7386, and Dallas County case number
F-9365611-RS), previously considered as violent felonies under the ACCA residual clause, no
longer support his ACCA sentence since the residual clause has been held unconstitutional. ECF
Nos. 1 at 7; 5 at 7. After service of the § 2255 motion, the Government filed a motion to dismiss
for lack of jurisdiction, along with an appendix in support. ECF Nos. 8, 9. The Court then granted
Willingham’s motions for the appointment of counsel, and appointed the Office of the Federal
Public Defender to assist Willingham in this proceeding. ECF No. 10. Willingham’s counsel filed
a response to the motion to dismiss. ECF No. 14. The Government has not filed any reply.
II.

Whether the Successive § 2255 Motion is Subject to Review on the Merits
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) modified the

provisions of 28 U.S.C. §§ 2244, 2254, and 2255 related to successive collateral challenges, making
it “significantly harder for prisoners filing second or successive federal habeas corpus motions to
obtain hearings on the merits of their claims.” United States v. Orozco-Ramirez, 211 F.3d 862, 864
(5th Cir. 2000). The final paragraph of § 2255 states:
A second or successive motion must be certified as provided in section 2244 by a
panel of the appropriate court of appeals to contain –
(1) newly discovered evidence that, if proven and viewed in light of the evidence as
a whole, would be sufficient to establish by clear and convincing evidence, that no
reasonable factfinder would have found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable.
4
19-11392.167

Willingham v. United States
Petition Appendix

10a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 5 of 16 PageID 162

28 U.S.C.A. §§ 2255(h)(1) and (2) (West Supp. 2016). Although the AEDPA included specific
provisions in section 2244 detailing the requirements for successive section 2254 petitions by state
prisoners, those details were not included in section 2255. See Reyes Requena v. United States, 243
F.3d 893, 897 n.8 (5th Cir. 2001) (“When AEDPA amended the various collateral review and habeas
corpus statutes, it did not include the details applicable to successive § 2255 motions; rather, it
simply referred to the § 2254 procedures detailed in § 2244”). However, in Reyes Requena, the Fifth
Circuit determined that § 2255 incorporates the detailed provisions of both § 2244(b)(3)(C) and
§2244(b)(4). Id. at 897. Those provisions provide:
[§ 2244(b)(3)(C)] The court of appeals may authorize the filing of a second or
successive application only if it determines that the application makes a prima facie
showing that the application satisfies the requirements of this subsection.
[§ 2244(b)(4)] A district court shall dismiss any claim presented in a second of
successive application that the court of appeals has authorized to be filed unless the
applicant shows that the claim satisfies the requirements of this section.
28 U.S.C.A. §§ 2244(b)(3)(C) and (b)(4) (West 2016) (emphasis added). Thus, before a defendant
may receive a merits adjudication of his successive § 2255 motion, he must pass through two gates.
See In re Swearingen, 556 F.3d 344, 347 (5th Cir. 2009) (“Section 2244 establishes two independent
gates through which a motion to file a successive petition must pass before the merits will be
addressed”) (citation omitted). First, the inmate must present a motion to the court of appeals and
therein make a prima facie showing that his application to file a successive § 2255 motion satisfies
the requirements of § 2255(h). See In re Morris, 328 F.3d 739, 740 (5th Cir. 2003); Reyes-Requena,
243 F.3d at 897; 28 U.S.C.A. §§ 2244(b)(3)(C) and 2255.
Willingham has passed through this first gate. The Fifth Circuit concluded that he made a
prima facie showing under § 2255(h)(2) on the claim that “his sentence was unconstitutionally
enhanced under the Armed Career Criminal Act (ACCA) because his prior Texas burglary

5
19-11392.168

Willingham v. United States
Petition Appendix

11a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 6 of 16 PageID 163

convictions were violent felonies only under the residual clause of the ACCA, which has been
invalidated” by noting that “the Supreme Court has held that Johnson announced a new rule of
constitutional law that is retroactively applicable to cases on collateral review.” In re Willingham,
No. 16-10859 (5th Cir. Sept. 19, 2016) (citing Welch v. United States, 136 S. Ct. 1257, 1265 (2016)).
A prima facie showing is a sufficient showing of possible merit to warrant a fuller exploration by
the district court. See In re Hearn, 418 F.3d 444, 445, 447–48 (5th Cir. 2005).
The second gate for Willingham is through this Court. The grant of authorization to file a
second or successive motion by the court of appeals is “tentative,” and the district court “is the
second ‘gate’ through which the [2255 movant] must pass before the merits of his or her motion are
heard.” In re Morris, 328 F.3d at 741. The Fifth Circuit has explained “the district court must
dismiss the motion that we have allowed the applicant to file, without reaching the merits of the
motion, if the court finds that the movant has not satisfied the requirements for filing of such a
motion.” Id. (citing Reyes-Requena, 243 F.3d at 899). This Court has the authority and obligation
to dismiss any claim if the movant fails to satisfy the criteria identified in 28 U.S.C. § 2255(h). But,
if those criteria are satisfied, then the case should proceed to full adjudication on the merits.
In Reyes-Requena, the district court dismissed the authorized, successive motion because the
new rule invoked—Bailey v. United States, 516 U.S. 137 (1995)—was not “a new rule of
constitutional law.” 28 U.S.C. § 2255(h)(2) (emphasis added). In affirming the district court’s
dismissal, the Fifth Circuit focused on this requirement:
The Supreme Court in Bailey conducted a routine statutory analysis. See 516 U.S.
at 144, 116 S.Ct. 501 (“We conclude that the language, context, and history of
§924(c)(1) indicate that the Government must show active employment of the
firearm.”). In Bousley v. United States, the Court reiterated the statutory nature of
its Bailey case. See 523 U.S. 614, 620, 118 S.Ct. 1604, 140 L. Ed.2d 828 (1998)
(stating that Bailey “[decided] the meaning of a criminal statute enacted by
Congress”). This statement affirmed our earlier holding to the same effect in United
States v. McPhail, in which we held that Bailey “is a substantive, non-constitutional

6
19-11392.169

Willingham v. United States
Petition Appendix

12a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 7 of 16 PageID 164

decision concerning the reach of a federal statute.” 112 F.3d 197, 199 (5th Cir.1997)
(emphasis added). As such, the Bailey decision does not put forth a “new rule of
constitutional law.” See, e.g., Triestman, 124 F.3d at 372 (stating that petitioner may
not raise his Bailey claim in a second or successive § 2255 motion because Bailey
was not a constitutional case) (collecting cases from other circuits); United States v.
Lorentsen, 106 F.3d 278, 279 (9th Cir.1997) (stating that “Bailey announced only a
new statutory interpretation, not a new rule of constitutional law” and thus was not
a basis for a successive § 2255 motion).
Reyes-Requena, 243 F.3d at 900. Section 2244(d) did not allow the district court to decide, at the
dismissal stage, whether the petitioner was entitled to relief under Bailey. The sole question was
whether the Bailey rule was of the type described in § 2255(h)(2).
This case is distinguishable from Reyes-Requena because the parties agree that the new rule
announced in Johnson is constitutional, substantive, previously unavailable, and has been “made”
retroactive by the Supreme Court in Welch v. United States, 136 S. Ct. 1257 (2016). Moreover,
Willingham satisfies the criteria specified in 28 U.S.C. § 2244: his claim “relies on” the rule in
Johnson, a new rule of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable. See 28 U.S.C. § 2244(b)(2)(A); see generally Kirk
v. United States, No 4:05CR52-GHD-DAS, 2016 WL 6476963, at *3 (N.D. Miss. Nov. 1, 2016)
(“Johnson II (Johnson v. United States, 135 S. Ct. 2551 (2015)) invalidated the residual clause of
18 U.S. Code § 924(e)(2)(B(ii), creating a new rule of constitutional law retroactive to cases on
collateral review. Welch v. United States,136 S. Ct. 1257, 1265 (2016). As the invalidation of the
‘residual clause’ was unavailable to [§ 2255 Movant] Kirk before Johnson II was decided, he has
fulfilled the gatekeeping provision of 28 U.S.C. § 2255(h), and the court will examine the merits of
his § 2255 claim”). Willingham has satisfied the threshold requirements and the Court will now turn
to an adjudication of the § 2255 motion on the merits.
III.

Johnson v. United States, 135 S. Ct. 2551 (2015)

7
19-11392.170

Willingham v. United States
Petition Appendix

13a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 8 of 16 PageID 165

In Johnson, the Supreme Court examined ACCA, which provides for an enhanced sentence
of 15 years to life for an individual who is convicted of possessing a firearm and has three or more
convictions for a serious drug offense or violent felony. The ACCA defines “violent felony” as:
any crime punishable by imprisonment for a term exceeding one year . . . that –
(i) has as an element the use, attempted use, or threatened use of physical force
against the person of another; or
(ii) is burglary, arson, or extortion, involves the use of explosives, or otherwise
involves conduct that presents a serious potential risk of physical injury to another.
18 U.S.C. § 924(e)(2)(B) (emphasis added). The definition set forth in paragraph (i) is known as
the “elements” or “force” clause. The non-italicized offenses listed in paragraph (ii) are the
“enumerated offenses.” The italicized portion found in paragraph (ii) describing conduct that
“presents a serious risk of physical injury to another” is the ACCA’s “residual” clause. The
Supreme Court found the residual clause to be unconstitutionally void for vagueness, explaining that
the “indeterminacy of the wide-ranging inquiry required by the residual clause both denies fair
notice to defendants and invites arbitrary enforcement by judges.” Id. at 2557. The Court, however,
also expressly noted that their opinion “does not call into question application of the (ACCA) to the
four enumerated offenses, or the remainder of the (ACCA’s) definition of a violent felony.” Id. at
2563. Accordingly, not every person previously sentenced under the ACCA is entitled to seek
retroactive relief on collateral review.
Whether Willingham can benefit from Johnson on the merits is not readily apparent. The
Government and Willingham argue two different approaches to resolving the proper burden
Willingham must meet in order to recover on the merits. The Government argues that Willingham’s
burden is to demonstrate that the sentencing court relied upon the residual clause when reviewing
whether the underlying prior offenses were “violent felonies” under the ACCA, and that he is not

8
19-11392.171

Willingham v. United States
Petition Appendix

14a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 9 of 16 PageID 166

entitled to relief unless he can make this showing. Government’s Mot., ECF No. 8, at 3, 5–6.
Willingham argues instead that he must show, (1) constitutional error by showing only that the
sentencing court relied upon the entire pre-Johnson definition of “violent felony” when it applied
the ACCA enhancement, and (2) prejudice, that he would not be eligible for an ACCA sentence
under current law. Willingham’s Resp., ECF No. 14, at 4–6.
IV.

Willingham’s Underlying Sentencing Record
As the Government notes, it is not evident from the records of the sentencing proceeding in

this case that Willingham’s sentence was imposed under the residual clause. The probation officer
recounted that his offense of conviction was under 18 U.S.C. § 922(g) and that he had at least three
prior convictions for a “violent felony” or “serious drug offense,” both committed on occasions
different from one another, such that he was “classified as an armed career criminal subject to an
enhanced sentence under 18 U.S.C. § 924(e).” PSR ¶ 22. Within the criminal history section, the
PSR recited two convictions for burglary of a building, (PSR ¶¶ 26–27); one for burglary, (PSR
¶28); one for voluntary manslaughter, (PSR ¶ 29); one each for expired driver’s license, expired
license plates, and intoxication by a substance other than alcohol, (PSR ¶ 31); one for possession
of cocaine and heroin, (PSR ¶ 33); and four for burglary of a habitation, (PSR ¶¶ 30, 32, 34, 35).
And as noted above, three of the four convictions for burglary of a habitation (Howard County case
numbers 7385 and 7386, and Dallas County case number F-9365611-RS) were expressly listed
within the factual resume and in another portion of the PSR. FR, ECF No. 39; PSR ¶ 7. In none of
the sentencing documents were the prior offenses referenced as falling under the residual clause,
and review of the transcripts of the rearraignment and sentencing proceedings do not provide any
indication that the Court made a determination as to whether any of Willingham’s offenses qualified

9
19-11392.172

Willingham v. United States
Petition Appendix

15a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 10 of 16 PageID 167

as violent felonies under the residual clause. Rearraignment Hr’g Tr., ECF No. 47; Sentencing Hr’g
Tr., ECF No. 38.
Thus, under this record the Court can be certain only that the sentencing judge adopted the
probation officer’s report, which simply concluded that Willingham had three violent felonies or
serious drug offenses to qualify for an enhanced sentence under § 924(e). The record is not clear
exactly which prior convictions the sentencing judge relied upon, and whether those prior
convictions qualified as violent felonies under the elements clause, the enumerated clause, or the
residual clause of ACCA.
V.

Applicable Burden on Movant
The Government recites that Willingham’s burden cannot be met unless “he proves that he

was sentenced under the residual clause.” Id. (citing In re Moore, 830 F.3d 1268, 1272–73 (11th
Cir. 2016) (“If the district court cannot determine whether the residual clause was used in sentencing
and affected the final sentence—if the court cannot tell one way or the other—the district court must
deny the § 2255 motion”). Consistent with this approach, some courts hold that a court cannot look
at current case law to determine whether the residual clause was implicated in a defendant’s
sentencing, concluding that how the defendant was actually sentenced is what matters:
If the defendant cannot show, as a factual matter, that his sentencing judge would
have been unable at the time of sentencing to use one of the ACCA’s other clauses,
he cannot meet his burden to show that the residual clause was implicated in his
sentence and [that] his motion is thus based on Johnson’s invalidation of the residual
clause.
United States v. Carrion, 2017 WL 662484, at *3, n.24 (collecting cases taking the approach that
defendant/movant must show the sentencing court employed the residual clause).
The Court observes that the In re Moore opinion of a panel of the Eleventh Circuit cited by
the Government has been criticized and distinguished by another panel of the Eleventh Circuit. See

10
19-11392.173

Willingham v. United States
Petition Appendix

16a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 11 of 16 PageID 168

In re Chance, 831 F.3d 1335, 1339 (11th Cir. 2016) (noting that the “commentary in [Moore]
undoubtedly is dicta” and later noting that such “dicta . . . also seems quite wrong”). Other courts
have criticized the In re Moore opinion and suggested that a § 2255 movant challenging an ACCA
conviction that may no longer qualify as a violent felony, must meet a lesser burden. See United
States v. Booker, Crim. No. 04-049 (PLF), Civ. No. 16-1107 (PLF), 2017 WL 829094, at *4 (D.D.C.
Mar. 3, 2017) (“The government’s position would create the absurd result that [a § 2255 Movant
with a record devoid of the sentencing judge’s intent] is not entitled to relief under Johnson, but a
defendant who filed the same motion and had the same prior convictions would be entitled to relief
if the sentencing judge years earlier had ‘thought to make clear that she relied on the residual
clause’”) (quoting In re Chance, 831 F.3d at 1340); see also Thrower v. United States, No. 04-CR0903 (ARR), 2017 WL 1102871, at *4 (E.D.N.Y. Feb. 13, 2017) (“[T]he vast majority of the district
courts that have considered the issue have decided that a petitioner meets his burden of proving
constitutional error if the record is unclear and the petitioner shows that the sentencing court may
have relied on the residual clause in calculating his sentence”) (emphasis in original). Courts
following this approach have reasoned that “[w]here the record is silent and a court did not address
any sentencing objections, it is unfair to require a petitioner to show ‘actual reliance’ on the residual
clause. Absent any record by the Court or analysis in the PSR, there is no means by which a
defendant could prove this fact.” United States v. Hamilton, 2017 WL 368512, at *3 (N.D. Okla.
Jan. 25, 2017) (emphasis added); see also Maxwell v. United States, No. 1:16CV00249 ERW, 2017
WL 690948, at *1 (E.D. Mo. Feb. 21, 2017) (noting that where a court cannot determine whether
the petitioner was sentenced under the residual clause of the ACCA, the better approach is to find
relief available because the court might have relied on the unconstitutional residual clause). As the
district court in Carrion explained:

11
19-11392.174

Willingham v. United States
Petition Appendix

17a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 12 of 16 PageID 169

Most courts in this camp require a defendant to show some possibility that the
sentencing judge might have relied on the residual clause. Once that low hurdle is
surmounted, intervening case law can then be used to determine whether the
defendant was harmed by this potential error, i.e., whether the convictions would
qualify as violent felonies under one of the ACCA’s remaining clauses under current
case law. Under this approach, a plausible argument that Johnson is implicated gets
the defendant through § 2255’s gate, and intervening case law can then be used to
show that the residual clause impacted the defendant’s sentencing.
Carrion, 2017 WL 662484, at *4, n.30 (collecting cases allowing defendants to rely on Johnson in
combination with recent law to challenge their sentences) (footnote and citations omitted).
This Court finds, like the majority of courts to consider the issue, that where a movant can
show that the sentencing judge may have relied upon the now invalid residual clause in imposing
his prior ACCA sentence, he has made a sufficient showing to then review whether he was
prejudiced by the prior sentence. As a result, the Government’s motion to dismiss the motion under
28 U.S.C. § 2255 must be denied.
VI.

Prejudice Analysis
Multiple courts have recognized that Johnson requires them to reexamine prior burglary

offenses under current law to determine whether a defendant suffered prejudice when sentenced
under the prior, unconstitutional version of ACCA. For example, in United States v. Gomez, 2:04CR-2126-RMP, 2016 WL 1254014, at *3 (E.D. Wash. Mar. 10, 2016), the district court granted
relief on a Johnson claim where the defendant challenged a prior burglary conviction:
Prior to Johnson, regardless of Descamps and the alleged invalidity of utilizing the
modified categorical approach concerning the Washington State residential burglary
statute, Defendant’s 1996 residential burglary conviction could have been a predicate
“violent felony” under the residual clause. See James, 550 U.S. at 209 (finding that
attempted burglary under Florida law was a “violent felony” under the residual
clause); Taylor, 495 U.S. at 600 n.9 (“The Government remains free to argue that
any offense—including offenses similar to generic burglary—should count towards
enhancement as one that ‘otherwise involves conduct that presents a serious potential
risk of physical injury to another.’”). As such, until Johnson, Defendant’s 1996
residential burglary conviction remained a “violent felony” through the ACCA
residual clause.

12
19-11392.175

Willingham v. United States
Petition Appendix

18a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 13 of 16 PageID 170

Id. The court in United States v. Harris, 205 F. Supp. 3d 651 (M.D. Pa. 2016), reached the same
conclusion:
We reject the government’s argument that Defendant’s challenge to the burglary
conviction is untimely or that Defendant’s motion is really an untimely Descamps
claim. His 2255 motion is properly based on Johnson (2015), as he has shown above
that two prior convictions, escape and resisting arrest, could only have been based
on the now-defunct residual clause, and thus can no longer be considered predicate
offenses. Having shown that he properly invoked Johnson (2015), Defendant can
proceed to establish that his prior convictions do not qualify him as a career offender
under the ACCA under the elements clause or enumerated-offenses clause . . . . And
he can rely on current law in doing so.
Harris, 205 F. Supp. 3d at 665 (citations omitted); see also In re Adams, 825 F.3d 1283, 1284 (11th
Cir. 2016) (allowing a defendant to challenge the classification of a prior burglary offense under
Johnson and Descamps in a successive § 2255 motion).
If Willingham had challenged the classification of his burglary offenses at any time prior to
Johnson, that challenge would have been futile. The Government would have pointed to the residual
clause, and, under then-existing precedent, would have prevailed. See generally James v. United
States, 550 U.S. 192, 212 (2007) (noting that the residual clause “can cover conduct that is outside
the strict definition of, but nevertheless similar to, generic burglary”). By contrast, after Johnson,
the Government can no longer rely on the residual clause. Willingham contends he is not eligible
for an ACCA sentence without the unconstitutionally expanded definition of “violent felony.” This
Court must decide, under current law, whether Willingham is still eligible for an ACCA sentence.
If he is not, then the constitutional error in applying the now-invalidated version of the ACCA
prejudiced him.
Although the record is unclear which of Willingham’s prior offenses the sentencing judge
ultimately relied upon to determine ACCA status, the Government concedes that it was most likely
the three Texas convictions for burglary of a habitation recited in the factual resume. Mot. Dismiss,

13
19-11392.176

Willingham v. United States
Petition Appendix

19a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 14 of 16 PageID 171

ECF No. 8, at 4, n.2. The Texas burglary statute under which Willingham was convicted, Section
30.02(a) of the Texas Penal Code, defines burglary as follows:
(a) A person commits an offense if, without the effective consent of the owner, the
person:
(1) enters a habitation, or a building (or any portion of a building) not then open to
the public, with intent to commit a felony, theft, or an assault; or
(2) remains concealed, with intent to commit a felony, theft, or an assault, in a
building or habitation; or
(3) enters a building or habitation and commits or attempts to commit a felony, theft,
or an assault.
Tex. Penal Code § 30.02(a) (West 2011).
The Fifth Circuit has examined the alternative elements of burglary under Texas law and has
held that the offense of burglary under Section 30.02(a)(1) constitutes the generic offense of
“burglary,” while a conviction under the alternative element set forth at Section 30.02(a)(3) does
not. See United States v. Constante, 544 F.3d 584, 585–87 (5th Cir. 2008). The court reasoned that
a conviction under § 30.02(a)(1) expressly requires that the entry to the building or habitation be
made “with the intent to commit a crime,” while “§ 30.02(a)(3) lacks such an intent requirement”
and thus does not qualify as the generic burglary offense. United States v. Conde-Castaneda, 753
F.3d 172, 176 (5th Cir. 2014) (citing Constante, 544 F.3d at 587). The court of appeals later held
that “§30.02(a) is a divisible statute [because] ‘one alternative . . . matches an element in the generic
offense [of burglary of a dwelling], but the other . . . does not.’” Conde-Castaneda, 753 F.3d at 176
(citing Descamps v. United States, 133 S. Ct. 2276, 2281 (2013) (finding a statute which “sets out
one or more elements of the offense in the alternative” is a “divisible statute”)). The Fifth Circuit
recently reaffirmed that the Texas burglary statute remains a divisible statute after the Supreme

14
19-11392.177

Willingham v. United States
Petition Appendix

20a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 15 of 16 PageID 172

Court’s decision in Mathis v. United States, 136 S. Ct. 2243 (2016). See United States v. Uribe, 838
F.3d 667, 670–71 (5th Cir. 2016).
The Government also concedes that all three of the convictions for burglary of a habitation
they believe the sentencing court relied upon are convictions under Texas Penal Code § 30.02(a)(3),
acknowledging that “the charging documents do not allege specific intent to steal at the time of the
unlawful entry.” Mot. Dismiss, ECF No. 8, at 4, n.2; Government App., ECF No. 9, at 20, 33–34,
38–39. Thus, the three convictions for burglary of a habitation recited in the factual resume and
expressly listed in the offense conduct section of PSR, can no longer serve as qualifying violent
felonies under the ACCA.
As noted above, in Willingham’s criminal history as recited in the PSR, he has numerous
other prior convictions. PSR ¶¶ 25–39. But the Court is without any information to determine
whether, under current law, any of these prior convictions could still qualify Willingham for an
ACCA sentence under 18 U.S.C. § 924(e)(1). Without that information, the Court cannot ultimately
determine whether Willingham is entitled to a grant of relief under § 2255 in the form of a resentencing proceeding. Thus, the Court finds that, if the Government takes the position that other
prior convictions still qualify Willingham for a sentence under the ACCA, it must provide a detailed
response to the § 2255 motion, setting forth the three previous convictions for a violent felony or
serious drug offense that could still qualify Willingham for a sentence under 18 U.S.C. § 924(e).
The Court finds that an expedited response is required.
VII.

Conclusion
It is therefore ORDERED that the Government’s motion to dismiss (ECF No. 8) is

DENIED.

It is further ORDERED that the Government shall file a response to the motion under

§ 2255, setting forth it’s current position regarding the status of Willingham’s sentence, and if the

15
19-11392.178

Willingham v. United States
Petition Appendix

21a

Case 1:16-cv-00116-C Document 15 Filed 06/19/17

Page 16 of 16 PageID 173

Government takes the position that other prior convictions will still qualify Willingham for a
sentence under the ACCA, it must set forth the three previous convictions for a violent felony or
serious drug offense that could still qualify.
It is further ORDERED that the Government’s response must be filed on or before June 28,
2017.
It is further ORDERED that Willingham’s time to file a reply to the Government’s response
is until fourteen (14) days after the filing of the response.
SO ORDERED this 19th day of June, 2017.

_____________________________________
Reed O’Connor
UNITED STATES DISTRICT JUDGE

16
19-11392.179

Willingham v. United States
Petition Appendix

22a

Case 1:16-cv-00116-C Document 38 Filed 10/29/19

Page 1 of 2 PageID 278

IN TH E UN ITED STATES DISTRJCT COURT
FOR THE N ORTHERN DISTRICT O F TEXAS
A BILENE DIVISION

GARY LEE WILLINGHAM,

)

)
Movant,

)

)
V.

)

UNITED STATES OF AM ERJCA ,

)
)
)

Respondent.

)

C ivil Action No. 1:1 6-CV-11 6-C

ORDER
On June 24, 20 16, Gary Lee Willingham ("M ovant") filed hi s Motio n Under 28 U.S.C.

§ 2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody. On
October 25, 2019, Respondent filed a Status Report, therein requesting that the Court lift the stay
and dismiss Movant' s Section 2255 Motion.
Having considered Movant's M otio n, Respondent' s Status Report, and all relevant
reco rds, the Court is of the opinio n that the stay should be LIFTED and that Movant' s Motion
U nder 28 U. S.C .§ 2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody
should be DENIED and DISMISSED for the reasons stated in Respondent' s briefing- namely,
lack of jurisdi ction. See United Stales v. Clay, 921 F .3d 550 (5th Cir.201 9). All relief not
expressly granted is DE IED. 1
Pursuant to Rule 22 o f the Federal Rules of Appellate Procedure and 28 U. S.C. § 2253(c),
thi s Court find s that a certificate of appealability is denied. For the reasons set forth herein,

1

In the alternative and in light of the Fifth C irc uit' s opinion in United States v. Herrold,
_
F.3d _ , 201 9 WL 52881 54 (5th C ir. Oct. 18, 201 9), the Court finds that Movant's
Section 2255 should be DISMISSED due to the fact that Movant continues to qualify for the
enhanced penalty provisio ns of the Armed Career C riminal Act, 18 U.S.C. § 924(e).

19-11392.284

Willingham v. United States
Petition Appendix

23a

Case 1:16-cv-00116-C Document 38 Filed 10/29/19

Page 2 of 2 PageID 279

Movant has fai led to show that a reasonable jurist would find: (1) this Court's "assessment of the
constitutional claims debatable or wrong," or (2) " it debatable whether the petition states a valid
claim of the denial of a constitutional right" and "debatable whether [this Court] was correct in
its procedural ruling." Slack v. McDaniel, 529 U.S. 473, 484 (2000).

I~

SO ORDERED this )

7 day of October, 20 19.

2

19-11392.285

Willingham v. United States
Petition Appendix

24a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 1 of 12 PageID 146

In the United States District Court
For the Northern District of Texas
Abilene Division
Gary Lee Willingham,
Movant,

§
§
§
§
§
§
§
§

v.
United States of America,
Respondent.

Case No. 1:16-CV-116-O
Related to 1:01-CR-67-C

Movant’s Response in Opposition to
Motion to Dismiss
The Government has moved to dismiss Mr. Willingham’s authorized successive motion to
vacate under 28 U.S.C. § 2255, arguing that the motion does not satisfy the criteria outlined in 28
U.S.C. § 2255(h)(2). (Doc. 8). The Government is wrong. The Court should deny the motion,
proceed to the merits of the action, and grant relief to Mr. Willingham.
I. Contrary to the Government’s argument in its Motion to Dismiss, Mr. Willingham’s
authorized successive motion “contains” and relies on the new constitutional rule
announced on Johnson v. United States.
The Government’s motion argues that Mr. Willingham “does not meet his burden to show
that his sentence was imposed under the residual clause of the Armed Career Criminal Act.” (Doc.
8 at 2.) There are two problems with this assertion: first, it mistakes the merits inquiry for the
jurisdictional inquiry; second, it misstates Mr. Willingham’s burden on the merits.
Under 28 U.S.C. § 2255(h), a federal prisoner seeking to challenge his sentence through a
successive motion to vacate must obtain certification that his motion “contain[s] . . . a new rule of
constitutional law, made retroactive to cases on collateral review by the Supreme Court, that was

19-11392.152

Willingham v. United States
Petition Appendix

25a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 2 of 12 PageID 147

previously unavailable.” 28 U.S.C. § 2255(h)(2). Mr. Willingham obtained that certification from
the Fifth Circuit. (See ECF Doc. 4).
Admittedly, this authorization did not fully and finally determine whether the (h)(2) criteria
were satisfied. In granting Mr. Willingham’s motion, the Fifth Circuit stated that its grant of
authorization was merely “tentative,” and that this Court should “dismiss the § 2255 motion without
reaching the merits if it determines that Willingham has failed to make the showing required by
§ 2255(h)(2).” (Doc. 4 at 2). According to the Government, this Court is free to dismiss the case at
this preliminary stage without even looking at the “merits.” But despite couching its motion in
“jurisdictional” terms, the Government’s argument is a merits-based argument.
The Government cites Reyes-Requena v. United States, 243 F.3d 893 (5th Cir. 1991), in support
of its motion. (U.S. Mot. to Dism. At 2). But that case is distinguishable. Under the framework
established by 28 U.S.C. § 2244(b), the Court of Appeals first reviews the motion for authorization
to see if the prisoner makes a prima facie case that his proposed application will satisfy the
requirements of § 2244, or, for a federal prisoner, the substantive requirements of § 2255(h). 28
U.S.C. § 2244(b)(3). Once the Court of Appeals makes that determination as to an entire proposed
“application,” the district court must then review each individual “claim” within that application to
see if it satisfies § 2255(h). See 28 U.S.C. § 2244(b)(4). That is the process envisioned by the statute.
In Reyes-Requena, the Fifth Circuit first held that the claim-by-claim review in district court,
28 U.S.C. § 2244(b)(4) ,was incorporated into 28 U.S.C. § 2255. Id. at 899–900. As such, a district
court must review each individual claim in an authorized application to see if it “contains” a new
constitutional rule (or contains the appropriate kind of evidence of innocence). This Court has the
authority and obligation to dismiss any claim if the movant fails to satisfy the criteria identified in

19-11392.153

Willingham v. United States
Petition Appendix

26a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 3 of 12 PageID 148

28 U.S.C. § 2255(h). But, if those criteria are satisfied, then the case should proceed to full
adjudication on the merits.
In Reyes-Requena, the district court dismissed the authorized, successive motion because the
new rule invoked—Bailey v. United States, 516 U.S. 137 (1995)—was not “a new rule of constitutional
law.” 28 U.S.C. § 2255(h)(2) (emphasis added). In affirming the district court’s dismissal, the Fifth
Circuit focused on this requirement:
The Supreme Court in Bailey conducted a routine statutory analysis. See 516
U.S. at 144, 116 S.Ct. 501 (“We conclude that the language, context, and
history of § 924(c)(1) indicate that the Government must show active
employment of the firearm.”). In Bousley v. United States, the Court reiterated
the statutory nature of its Bailey case. See 523 U.S. 614, 620, 118 S.Ct. 1604,
140 L.Ed.2d 828 (1998) (stating that Bailey “[decided] the meaning of a
criminal statute enacted by Congress”). This statement affirmed our earlier
holding to the same effect in United States v. McPhail, in which we held that
Bailey “is a substantive, non-constitutional decision concerning the reach of a
federal statute.” 112 F.3d 197, 199 (5th Cir.1997) (emphasis added). As such,
the Bailey decision does not put forth a “new rule of constitutional law.” See,
e.g., Triestman, 124 F.3d at 372 (stating that petitioner may not raise his Bailey
claim in a second or successive § 2255 motion because Bailey was not a
constitutional case) (collecting cases from other circuits); United States v.
Lorentsen, 106 F.3d 278, 279 (9th Cir.1997) (stating that “Bailey announced
only a new statutory interpretation, not a new rule of constitutional law” and
thus was not a basis for a successive § 2255 motion)
Reyes-Requena, 243 F.3d at 900. Contrary to the Government’s argument here, § 2244(d) did not
allow the district court to decide, at the dismissal stage, whether the petitioner was entitled to relief
under Bailey. The sole question was whether the Bailey rule was of the type described in § 2255(h)(2).

19-11392.154

Willingham v. United States
Petition Appendix

27a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 4 of 12 PageID 149

This case is distinguishable from Reyes-Requena because all parties agree that the new rule
announced in Johnson is constitutional, substantive, previously unavailable, and has been “made”
retroactive by the Supreme Court in Welch v. United States, 136 S. Ct. 1257 (2016). Moreover, Mr.
Willingham satisfies the criteria specified in 28 U.S.C. § 2244: his claim “relies on” the rule in
Johnson, a new rule of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable. See 28 U.S.C. § 2244(b)(2)(A). As such, Mr.
Willingham has satisfied all the threshold requirements and the case should proceed to an
adjudication on the merits.
II. On the merits, Johnson provides relief to a defendant whose Armed Career Criminal
Act sentence depends on one or more non-generic burglaries.
The Government’s first error is to assert that this court must adjudicate the merits of the
case as a prerequisite to exercising jurisdiction. But even assuming it were appropriate to delve into
the merits (that is, whether Mr. Willingham is entitled to relief under the rule in Johnson), the
Government compounds that first error with a second one: it misstates Mr. Willingham’s burden
on the merits. He is not required to show the contents of the district court’s mind at the time it
imposed the original sentence. Nor must it be “clear that Willingham’s sentence was imposed in
reliance on the residual clause.” (U.S. Mot. at 3.) Instead, Mr. Willingham must show
(1) constitutional error and (2) prejudice.
A. Mr. Willingham can satisfy his burden on the merits by showing that the Court
might have relied on the residual clause.
The error here is utilizing the unconstitutional version of the “violent felony” definition.
This Court utilized the entire, pre-Johnson definition of “violent felony” when it applied the ACCA
enhancement at Mr. Willingham’s original sentencing. The only question is one of prejudice. As

19-11392.155

Willingham v. United States
Petition Appendix

28a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 5 of 12 PageID 150

one district court recently recognized, “The government’s position”—that the defendant must show
that the district court actually relied on the residual clause—“has been rejected by virtually every court
to have considered the question.” Mem. Order (Doc. 59) at 6, United States v. Ralph T. Wilson, No.
1:96-CR-157 (D.D.C. April 18, 2017):
The government’s position has been rejected by virtually every court to have
considered the question, including by two other judges in this district. See
United States v. Booker, No. 04- cr-0049, 2017 WL 829094, at *3-*4 (D.D.C.
Mar. 2, 2017) (Friedman, J.) (“The Court declines to impose the
government’s reliance requirement because [defendant] has done all that is
required of him: shown that the sentencing judge might have relied on the
now unconstitutional residual clause.”); United States v. Brown, No. 09-0358,
slip op. at 7-8 (D.D.C. Apr. 12, 2017) (Sullivan, J.) (same); see also United States
v. Winston, 850 F.3d 677, 682 (4th Cir. 2017) (“when an inmate’s sentence
may have been predicated on application of the now-void residual clause and,
therefore, may be an unlawful sentence under the holding in Johnson [2015],
the inmate has shown that he ‘relies on’ a new rule of constitutional law
within the meaning of 28 U.S.C. § 2244(b)(2)(A)”); United States v. Ladwig,
192 F. Supp. 3d 1153, 1159 (E.D. Wash. 2016) (defendant “successfully
demonstrated constitutional error simply by showing that the Court might
have relied on an unconstitutional alternative when it found that
[defendant’s] prior convictions for burglary and attempted rape were violent
felonies); Bevly v. United States, No. 4:15-cv-965, 2016 WL 6893815, at *1,
(E.D. Mo. Nov. 23, 2016) (“[i]n a situation where the Court cannot
determine under what clause the prior offenses were determined to be
predicate offenses, the better approach is for the Court to find relief is
available, because the Court may have relied on the unconstitutional residual
clause”); United States v. Mitchell, No. 1:06-cr-353, 2016 WL 6656771, at *3
(M.D. Pa. Nov. 10, 2016) (“It is sufficient for purposes of § 2255 review to

19-11392.156

Willingham v. United States
Petition Appendix

29a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 6 of 12 PageID 151

show that the court might have applied the residual clause when it imposed
the enhanced sentence.”); Shabazz v. United States, No. 3:16-cv-1083, 2017
WL 27394, at *5 (D. Conn. Jan. 3, 2017) (same); Givens v. United States, No.
4:16-cv-1143, 2016 WL 7242162, at *4 (E.D. Mo. Dec. 15, 2016) (same); Diaz
v. United States, No. 1:11-cr-0381, 2016 WL 4524785, at *5 (W.D.N.Y. Aug.
30, 2016) (same).
Wilson, supra, at 6–7.
If Mr. Willingham had argued that his Texas burglary offenses were not for generic
“burglary,” he could not escape the residual clause prior to Johnson. See Hardeman v. United States,
1:96-CR-192, 2016 WL 6157433, at *2–4 (W.D. Tex. Oct. 21, 2016) (explaining that the
Government “continued” to argue that non-generic Texas burglaries were still violent felonies under
the residual clause “until Johnson was decided,” and rejecting Government’s attempt to ignore the
Johnson’s impact on the analysis of non-generic burglaries). Now that the residual clause is gone, Mr.
Willingham can finally argue that his sentence is illegal under Johnson.
B. Courts throughout the nation have recognized that Johnson invalidates
sentences predicated upon non-generic burglary offenses.
Texas burglary under § 30.02(a)(3) is non-generic, and without the residual clause it is no
longer a violent felony. United States v. Constante, 544 F.3d 584, 587 (5th Cir. 2008). If the statute
is not divisible, then none of Mr. Willingham’s burglaries count as violent felonies. And even
assuming that the statute is divisible, the Government concedes that most were for non-generic
burglary under subsection (a)(3). (U.S. Mot. at 4 n.2.). Hardeman shows that a defendant whose
sentence was enhanced because of a non-generic burglary is entitled to relief under Johnson. 2016
WL 6157433, at *2–4.

19-11392.157

Willingham v. United States
Petition Appendix

30a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 7 of 12 PageID 152

To the extent the Government is arguing that this Court should apply the law as it existed
back in 2001, it is doubly mistaken. In a post-conviction action, prejudice is evaluated under current
law. See, e.g., United States v. Niemann, 204 F.3d 1115, 1999 WL 1328080, at *5, n.3 (5th Cir. 1999)
(citing Lockhart v. Fretwell, 506 U.S. 364, 368–372 (1993)) (“On the ‘prejudice’ prong, the court must
apply the current law to determine whether ‘the result of the [initial] proceeding was fundamentally
unfair or unreliable.’”). And when a court interprets a term in a statute—such as Constante’s analysis
of the term “burglary”—the court is saying what the law always has been. Thus, substantive decisions
are always deemed “retroactive.” See, e.g., Bousley v. United States, 523 U.S. 614, 620 (1998); Schriro
v. Summerlin, 542 U.S. 348, 351 (2004) (“New substantiverules generally apply retroactively.”); Welch,
136 S. Ct. at 1264 (same).
According to the motion to dismiss, Johnson has no effect on Mr. Willingham’s sentence
because the district court might very well have misapplied the enumerated-offense clause. (U.S. Mot.
at 5.) But that is both wrong and beside the point. Texas burglary prohibits some conduct that is not
generic burglary. See Constante, 544 F.3d 584 (5th Cir. 2008). Prior to Johnson, the Government
relied on the catch-all residual clause to classify at least some Texas burglaries as violent felonies.
And the Fifth Circuit approved this reliance. See United States v. Ramirez, 507 F. App’x 353 (5th Cir.
2013). Prior to Johnson, the Government repeatedly argued that non-generic Texas burglaries were
violent felonies under the residual clause, even in post-conviction actions.
In United States v. Emeary, 794 F.3d 526 (5th Cir. 2015) (Dennis, J.), the court recognized
that Johnson modified the analysis of Texas burglaries. See id. at 529 & n.3 (“In any event, the scope
of Constante is academic now that the Supreme Court has held that the residual clause is
unconstitutional and unenforceable.”).

19-11392.158

Willingham v. United States
Petition Appendix

31a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 8 of 12 PageID 153

Courts throughout the nation have recognized that Johnson requires them to reexamine prior
burglary offenses under current law to determine whether a defendant suffered prejudice when
sentenced under the prior, unconstitutional version of ACCA. For example, in United States v.
Gomez, 2:04-CR-2126-RMP, 2016 WL 1254014, at *3 (E.D. Wash. Mar. 10, 2016), the district court
granted relief on a Johnson claim where the defendant challenged a prior burglary conviction:
Prior to Johnson, regardless of Descamps and the alleged invalidity of utilizing
the modified categorical approach concerning the Washington State
residential burglary statute, Defendant’s 1996 residential burglary conviction
could have been a predicate “violent felony” under the residual clause. See
James, 550 U.S. at 209 (finding that attempted burglary under Florida law was
a “violent felony” under the residual clause); Taylor, 495 U.S. at 600 n.9 (“The
Government remains free to argue that any offense–including offenses
similar to generic burglary–should count towards enhancement as one that
‘otherwise involves conduct that presents a serious potential risk of physical
injury to another.’”). As such, until Johnson, Defendant’s 1996 residential
burglary conviction remained a “violent felony” through the ACCA residual
clause.
The court in United States v. Harris, 1:CR-06-0268 (M.D. Pa. Aug. 31, 2016), reached the same
conclusion:
We reject the government’s argument that Defendant’s challenge to the
burglary conviction is untimely or that Defendant’s motion is really an
untimely Descamps claim. His 2255 motion is properly based on Johnson
(2015), as he has shown above that two prior convictions, escape and resisting
arrest, could only have been based on the now-defunct residual clause, and
thus can no longer be considered predicate offenses. Having shown that he
properly invoked Johnson (2015), Defendant can proceed to establish that his

19-11392.159

Willingham v. United States
Petition Appendix

32a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 9 of 12 PageID 154

prior convictions do not qualify him as a career offender under the ACCA
under the elements clause or enumerated-offenses clause.
Harris, 2016 WL 4539183, at *9; see also In re Adams, 825 F.3d 1283, 1284 (11th Cir. 2016) (allowing
a defendant to challenge the classification of a prior burglary offense under Johnson and Descamps in
a successive § 2255 motion); United States v. Winston, 3:01-CR-00079, 2016 WL 4940211, at *2
(W.D. Va. Sept. 16, 2016) (“This is so because Johnson II eliminated an escape-hatch—that is, a
statutory hook on which the Government otherwise could have hung Defendant’s ACCA
enhancement if robbery did not satisfy the force clause.”).
The Eleventh Circuit recently recognized that a petitioner in Mr. Willingham’s shoes is not
required to prove beyond all doubt that the district court explicitly relied on the defunct residual
clause:
In our view, it makes no difference whether the sentencing judge used the
words “residual clause” or “elements clause,” or some similar phrase. If
Johnson means that an inmate’s § 924(c) (or § 924(o)) companion conviction
should not have served as such, then the text of § 924(c) no longer authorizes
his sentence and his imprisonment is unlawful. More specifically, a
conclusion that Johnson’s rule applied to § 924(c)’s residual clause would
mean that inmate’s sentence was lawful up until the day Johnson was decided,
but no longer is. To be sure, the inmate is the one who has to make the
showing that his sentence is now unlawful. But we believe the required
showing is simply that § 924(c) may no longer authorize his sentence as that
statute stands after Johnson—not proof of what the judge said or thought at a decadesold sentencing. No matter what the judge said, it is precedent from the
Supreme Court and this Court that dictates which offenses meet § 924(c)’s
definitions. See Rivers v. Roadway Express, Inc., 511 U.S. 298, 312–313 (1994)
(“It is this Court’s responsibility to say what a statute means, and once the

19-11392.160

Willingham v. United States
Petition Appendix

33a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 10 of 12 PageID 155

Court has spoken, it is the duty of other courts to respect that understanding
of the governing rule of law. A judicial construction of a statute is an
authoritative statement of what the statute meant before as well as after the
decision of the case giving rise to that construction.” (emphasis added)). So,
if the Supreme Court has said an inmate’s conviction does not meet one of
the definitions that survive Johnson, then the inmate may have a claim that he
has “the right to be released upon the ground that the sentence was imposed
in violation of the Constitution or laws of the United States . . . or that the
sentence was in excess of the maximum authorized by law.” 28 U.S.C. §
2255(a).5
In re Chance, 831 F.3d 1335, 1341 (11th Cir. 2016).
If Mr. Willingham had challenged the classification of his burglary offenses at any time prior
to Johnson, that challenge would have been futile. The Government would have fallen back on the
residual clause, and under James, the Government would have won. C.f. Stanley v. United States, 827
F.3d 562, 565 (7th Cir. 2016) (Easterbrook, J.), (“Perhaps a prisoner could argue that he decided
not to press an argument about the elements clause at sentencing, or on appeal, when the only
consequence would have been to move a conviction from the elements clause to the residual clause.
Then it would be possible to see some relation between Johnson and a contention that the conviction
has been misclassified, for the line of argument could have been pointless before Johnson but
dispositive afterward.”).
By contrast, after Johnson, the Government can no longer fall back on the residual clause
escape-hatch. Mr. Willingham contends that he is not eligible for an ACCA sentence without the
unconstitutionally expanded definition of “violent felony.” The Court must decide, under current

19-11392.161

Willingham v. United States
Petition Appendix

34a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 11 of 12 PageID 156

law, whether he is eligible for an ACCA sentence. If he is not, then the constitutional error in
applying the wrong version of ACCA prejudiced him.
C. Mr. Willingham preserves for further review the argument that Texas burglary
is indivisible and non-generic.
Mr. Willingham concedes that, as of the date this Reply is filed, the Fifth Circuit has held
that the Texas offense of burglary remains divisible. See United States v. Uribe, 838 F.3d 667 (5th Cir.
Oct. 3, 2016). The Fifth Circuit denied rehearing en banc in Uribe, but multiple cases continue to
press this issue. See e.g. United States v. Herrold, No. 14-11317 (pet. for reh’g en banc filed April 25,
2017).
More importantly, Uribe did not address Texas cases concerning jury unanimity, which is the
sine qua non of divisibility after Mathis. Texas courts have consistently held that burglary under
§ 30.02(a) is a single offense, and that subsections (a)(1) and (a)(3) represent alternative means or
theories to prove that single offense. See Ex parte Cavazos, 203 S.W.3d 333, 337 (Tex. Crim. App.
2006) (holding that a burglary “offense is complete once the unlawful entry is made, without regard
to whether the intended theft or felony is also completed,” and therefore it would violate double
jeopardy to convict a defendant of multiple burglary offenses arising from a single unlawful “entry”);
Martinez v. State, 269 S.W.3d 777, 783 (Tex. App. 2008); Stanley v. State, No. 03-13-00390-CR, 2015
WL 4610054, at *7 (Tex. App. July 30, 2015); Washington v. State, No. 03–11–00428–CR, 2014 WL
3893060, at *3–4 (Tex. App. Aug. 6, 2014) (recognizing that (a)(1) and (a)(3) “‘are essentially
alternative means of proving a single mens rea element and not separate offenses”).
Mr. Willingham asks this Court to address this argument which was neither raised nor
addressed in Uribe. If that argument is vindicated, he will be entitled to relief in this post-conviction
petition because there will not be 3 or more violent felonies committed on separate occasions.

19-11392.162

Willingham v. United States
Petition Appendix

35a

Case 1:16-cv-00116-C Document 14 Filed 04/28/17

Page 12 of 12 PageID 157

D. Mr. Willingham reserves the right to argue that any of the remaining
convictions likewise fail to qualify as violent felonies.
The Government relies exclusively on the burglary convictions in its motion to dismiss. As
such, Mr. Willingham will not address any of the other convictions in this response. However, none
of the other offenses qualify as violent felonies or serious drug offenses under current law, either.
Therefore, the Court should proceed to the merits, grant his motion to vacate, and order his
immediate release.
Conclusion
For all these reasons, Mr. Willingham respectfully asks that the Court deny the
Government’s motion to dismiss.
Respectfully submitted,
/s/ J. Matthew Wright
Assistant Federal Public Defender
500 South Taylor Street, Suite 110
Amarillo, Texas 79101
806.324.2370
Matthew_Wright@fd.org
Certificate of Service
I filed this response via ECF. Opposing counsel is a registered filer and is deemed served.
/s/ J. Matthew Wright

19-11392.163

Willingham v. United States
Petition Appendix

36a

